No. 20In the

Supreme Court of the United States

TRACY WILL VAUGHN,
Petitioner,
v.
STATE OF ARKANSAS,
Respondent.

On Petition for Writ of Certiorari to the Arkansas Supreme Court

PETITION FOR A WRIT OF CERTIORARI

Jeffrey M. Rosenzweig, Esq.
Counsel of Record
300 Spring Street, Suite 310
Little Rock, AR 72201
(501) 372-5247
jrosenzweig@att.net
Attorney for Petitioner

301429

A
(800) 274-3321 • (800) 359-6859

QUESTION PRESENTED
Whether, consistent with the constitutional right to present a
defense, a state may declare a sexual assault accuser's counseling
records absolutely privileged even when the counseling is used to
develop the accuser's testimony and the counseling is conceded by the
prosecutor to be the basis for the development of the charge.

i

RELATED CASES

State v. Vaughn, 73CR-18-151, Circuit Court of White County,
Arkansas.

Judgment entered on January 11, 2019.

Vaughn v. State, CR-19-591. Arkansas Court of Appeals. Opinion
issued on March 18, 2020. (Appendix C).

Vaughn v. State, CR-19-591, Arkansas Supreme Court. Opinion issued
on October 8, 2020.
Note: A case filed in the Court of Appeals, the intermediate appellate
court, retains the same case number upon review in the Arkansas
Supreme Court.

ii

TABLE OF CONTENTS
Page
QUESTION PRESENTED .......................................................................... i
RELATED CASES ...................................................................................... ii
TABLE OF CONTENTS ...........................................................................iii
TABLE OF APPENDICES ......................................................................... v
TABLE OF AUTHORITIES ...................................................................... iv
CITATION TO OPINION BELOW ............................................................ 1
JURISDICTIONAL STATEMENT ............................................................ 1
CONSTITUTIONAL PROVISIONS INVOLVED ..................................... 2
STATEMENT OF THE CASE ................................................................... 5
REASONS FOR GRANTING THE WRIT AND ARGUMENT .............. 12
THE CONSTITUTIONAL RIGHT TO PRESENT A
DEFENSE PROHIBITS A STATE FROM DECLARING A
SEXUAL ASSAULT ACCUSER'S COUNSELING
RECORDS ABSOLUTELY PRIVILEGED WHEN THE
COUNSELING IS USED TO DEVELOP THE ACCUSER'S
TESTIMONY AND THE COUNSELING IS ANNOUNCED
AS THE DEVICE BY WHICH THE ACCUSATION IS
DEVELOPED. ................................................................................. 12
CONCLUSION ......................................................................................... 20

iii

TABLE OF APPENDICES
APPENDIX A – OPINION OF THE SUPREME COURT OF
ARKANSAS, DATED OCTOBER 8, 2020
APPENDIX B – ORDER OF THE STATE OF ARKANSAS, DATED
FEBRUARY 18, 2021
APPENDIX C – OPINION OF THE ARKANSAS COURT OF
APPEALS, DATED MARCH 18, 2020
APPENDIX D – VARIOUS SPEAKING RULINGS

iv

TABLE OF AUTHORITIES
Page(s)
Cases

Chambers v. Mississippi,

410 U.S. 284, 93 S. Ct. 1038 (1973) ................................................. 19

Crane v. Kentucky,

476 U.S. 683, 106 S. Ct. 2142 (1986) ............................................... 19

Davis v. Alaska,

415 U.S. 308, 94 S. Ct. 1105 (1974) ................................................. 19

Delaware v. Fensterer,

474 U.S. 15, 106 S. Ct. 292, 88 L. Ed. 2d 15 (1985) ........................ 16

Holmes v. South Carolina,

547 U.S. 319, 126 S. Ct. 1727 (2006) ............................................... 19

Jaffee v. Redmond,

518 U.S. 1, 116 S. Ct. 1923 (1996) ........................................... passim

Johnson v. State,

342 Ark. 186, 27 S.W.3d 405 (2000) .......................................... 14, 15

Kinder v. White,

609 Fed. App’x 126 (4th Cir. 2015) .................................................. 14

Miranda v. Arizona,

384 U.S. 436, 86 S. Ct. 1602, 16 L. Ed. 2d 694 (1966) .................... 18

Mitchell v. United States,

526 U.S. 314, 119 S. Ct. 1307 (1999) ............................................. 17

Pennsylvania v. Ritchie,

480 U.S. 379, 107 S. Ct. 989 (1987) ......................................... passim

Rock v. Arkansas,

483 U.S. 44, 107 S.Ct. 2704 (1987) .................................................. 19

Taffner v. State,

2018 Ark. 99, 541 S.W.3d 430 .......................................................... 15

v

United States v. Wright,

866 F.3d 899 (8th Cir. 2017) ............................................................ 16

Vaughn v. State,

2020 Ark. 313, 608 S.W.3d 569 .............................................. 1, 11, 16

Vaughn v. State,

2020 Ark. App. 185, 598 S.W.3d 549 ................................................ 1

Washington v. Texas,

388 U.S. 14, 87 S. Ct. 1920 (1967) ................................................... 19

Statutes and Other Authorites
Fifth Amendment to the United States Constitution ............................... 2
Sixth Amendment to the United States Constitution .............................. 2
Fourteenth Amendment to the United States Constitution .................... 2
28 U.S.C. § 1257.......................................................................................... 1
Ark. Code Ann. § 5-14-125 ........................................................................ 5
Arkansas Rules of Evidence 503 .......................................................... 2, 15

vi

CITATION TO OPINION BELOW
The Arkansas Supreme Court

Vaughn v. State,

opinion below is reported as

2020 Ark. 313, 608 S.W.3d 569.

It is found in

Appendix A. That opinion superseded an opinion of the Arkansas Court
of Appeals, the intermediate appellate court, reported as Vaughn v.

State, 2020 Ark. App. 185, 598 S.W.3d 549.

It is found in Appendix

C.

JURISDICTIONAL STATEMENT
This Court's jurisdiction is invoked pursuant to 28 U.S.C. § 1257.
The decision of the Arkansas Supreme Court denying relief was issued
on October 8, 2020. This petition, being filed within 150 days thereof
pursuant to this Court's order of March 19, 2020, is timely.

1

CONSTITUTIONAL PROVISIONS INVOLVED

Fifth Amendment, United States Constitution
nor be deprived of life, liberty, or property, without due process of law;

Sixth Amendment, United States Constitution
In all criminal prosecutions, the accused shall enjoy the right... to be
confronted with the witnesses against him; to have compulsory process
for obtaining witnesses in his favor...

Fourteenth Amendment, United States Constitution
nor shall any state deprive any person of life, liberty, or property,
without due process of law;
RULE 503, Arkansas Rules of Evidence.
PHYSICIAN AND PSYCHOTHERAPIST-PATIENT PRIVILEGE
(a) Definitions. As used in this rule:
(1) A "patient" is a person who consults or is examined or interviewed
by a physician or psychotherapist.
(2) A "physician" is a person authorized to practice medicine in any
state or nation, or reasonably believed by the patient so to be.
(3) A "psychotherapist" is (i) a person authorized to practice medicine in
any state or nation, or reasonably believed by the patient so to be, while
engaged in the diagnosis or treatment of a mental or emotional
condition, including alcohol or drug addiction, or, (ii) a person licensed
or certified as a psychologist under the laws of any state or nation,
while similarly engaged.
(4) A communication is "confidential" if not intended to be disclosed to

2

third persons, except persons present to further the interest of the
patient in the consultation, examination, or interview, persons
reasonably necessary for the transmission of the communication, or
persons who are participating in the diagnosis and treatment under the
direction of the physician or psychotherapist, including members of the
patient's family.
(5) A "medical record" is any writing, document or electronically stored
information pertaining to or created as a result of treatment, diagnosis
or examination of a patient.
(b) General Rule of Privilege. A patient has a privilege to refuse to
disclose and to prevent any other person from disclosing his medical
records or confidential communications made for the purpose of
diagnosis or treatment of his physical, mental or emotional condition,
including alcohol or drug addiction, among himself, physician or
psychotherapist, and persons who are participating in the diagnosis or
treatment under the direction of the physician or psychotherapist,
including members of the patient's family.
(c) Who May Claim the Privilege. The privilege may be claimed by the
patient, his guardian or conservator, or the personal representative of a
deceased patient. The person who was the physician or psychotherapist
at the time of the communication is presumed to have authority to
claim the privilege but only on behalf of the patient.
(d) Exceptions.
(1) Proceedings for Hospitalization. There is no privilege under this rule
for communications relevant to an issue in proceedings to hospitalize
the patient for mental illness, if the psychotherapist in the course of
diagnosis or treatment has determined that the patient is in need of
hospitalization.
(2) Examination by Order of Court. If the court orders an examination
of the physical, mental, or emotional condition of a patient, whether a
party or a witness, communications made in the course thereof are not
privileged under this rule with respect to the particular purpose for
which the examination is ordered unless the court orders otherwise.
(3) Condition and Element of Claim or Defense.
A. There is no privilege under this rule as to medical records or

3

communications relevant to an issue of the physical, mental, or
emotional condition of the patient in any proceeding in which he or she
relies upon the condition as an element of his or her claim or defense,
or, after the patient's death, in any proceeding in which any party relies
upon the condition as an element of his or her claim or defense.
B. Any informal, ex parte contact or communication with the patient's
physician or psychotherapist is prohibited, unless the patient expressly
consents. The patient shall not be required, by order of court or
otherwise, to authorize any communication with the physician or
psychotherapist other than (i) the furnishing of medical records, and (ii)
communications in the context of formal discovery procedures.

4

STATEMENT OF THE CASE
Tracy Will Vaughn was convicted of one count of Sexual Assault in
the Second Degree, Ark. Code Ann. § 5-14-125, in the Circuit Court of
White County, Arkansas. He was sentenced to five years in the
Arkansas Division of Corrections.

He was acquitted of two other

counts, and a directed verdict was granted on the fourth count.
In June, 2016, Vaughn had come under suspicion for the nature
of his relationship with the daughter of his girlfriend when he made
some remarks about the daughter and her friends "skinny-dipping" in
his swimming pool. Vaughn was interviewed and gave a lengthy
statement discussing the allegations but denying any sexual
component.

The girlfriend's daughter, referred to here as K.H., was

interviewed and denied any sexual contact by Vaughn.
charge was filed.

K.H. was sent to counseling.

No criminal

After over a year of

counseling, she emerged with allegations against Vaughn. The State
then filed a felony information against Vaughn on February 26, 2018,
stating in the affidavit in pertinent part that:

5

On June 13, 2016, three white female
juveniles (DOB redacted), (DOB redacted), and
(DOB) were interviewed at the Child Safety
Center located in Searcy, Arkansas. All three
juveniles disclosed of being allowed to skinny dip,
curse, and watch inappropriate movies while in
the care of Mr. Tracy Vaughn. When juvenile
(DOB redacted) was interviewed, she disclosed
that Tracy made her and (DOB redacted) touch
each other inappropriately while they were nude
in his pool. Juvenile (DOB redacted) recently
disclosed during her therapy session that Tracy
exposed his penis and made her touch it. The
juvenile also disclosed that she touched his penis
multiple times while she was swimming in his
pool located at 347 S Highway 323, Searcy,
Arkansas.
(Record at 5)
Vaughn moved for provision of the records, arguing inter alia the
constitutional right to present a defense, entitlement to in camera
examination with provision under Pennsylvania v. Ritchie, 480 U.S.
379, 107 S.Ct. 989 (1987), and waiver by the State placing them at
issue in the affidavit. (Record at 24-26)
prosecutor to provide the records to it.

The circuit court ordered the
That court held that the

records were absolutely privileged from disclosure even under Ritchie,

6

but noted that there were various records which would be of interest to
the defense. The request was renewed several times, including after
K.H. testified about the counseling in her testimony. Those renewals
occurred at pp. 129, 131, 150-154, 515 and 518-525 of the record and
are quoted in Appendix D.
On appeal, Vaughn argued that he needed access to the records
in order to write a cogent argument. The Arkansas Court of Appeals
granted that motion but ordered the briefs to be filed under seal. The
Court of Appeals agreed that Vaughn should have been allowed the
records under a waiver theory, but that the denial was harmless error.

Vaughn v. State, 2020 Ark. App. 185, 598 S.W.3d 549.
petitioned for review in the Arkansas Supreme Court.

Vaughn
After oral

argument, the Arkansas Supreme Court majority affirmed on different
grounds — that the records were absolutely privileged. Vaughn v.

State, 2020 Ark. 313, 608 S.W.3d 569.

Justices Hart and Wynne

dissented separately, but agreed that any privilege was superseded by
the right to present a defense at least to the extent of a Ritchie
examination and the handover of exculpatory materials. As set forth
below, Justice Hunt clearly felt that the material was exculpatory.

7

The Arkansas Supreme Court has denied Vaughn’s request to
unseal the record for the limited purpose of providing a redacted
summary of the records at issue.

(Appendix B).

Thus, in lieu of

presenting the records, Vaughn quotes the dissenting opinion of Justice
Hart, which is in the public domain and which will give this Court a
flavor of what Vaughn had been unable to access for trial or to describe
to this Court in his petition.
K.H. was also interviewed by State
investigators. Whatever the substance of that
interview was, the State apparently deemed
K.H.'s account insufficient to commence a
criminal prosecution, as no charges were filed
against Vaughn at that time. However, K.H. was
then sent to a private counselor, and the records
from those counseling sessions are contained in
the record on appeal.
As did the dissent in Johnson v. State, I find
the content of these counseling records too
important to ignore. 342 Ark. 186, 204–05, 27
S.W.3d 405, 417 (2000) (Brown, J., dissenting).
Vaughn's theory of defense at trial was that
K.H.'s allegations of sexual contact were false and
spurred by other adults in the wake of the
skinny-dipping revelation. The contents of these
counseling records reveal a great deal of evidence
that would have been relevant to and supportive

8

of Vaughn's theory.
The records show that for the first several
months of counseling, K.H. specifically and
repeatedly denies that Vaughn had ever touched
her inappropriately. They also show that by
around the six-month mark, the counselor had
begun prodding K.H. and her mother to let the
counselor know about any "new memories" K.H.
may have. After nearly another six months of this
treatment, K.H. reportedly tells her counselor,
"I'm going to come clean," reporting what the
counselor describes as "three new parts" of her
sexual abuse, one of which is apparently the
bathtub incident. The counselor notes, "Client
was scared to tell mom 3 new parts of the sexual
abuse. With my help, client told mom about
‘Meany' ... Mom reacted appropriately and
praised client for sharing with her and being
brave." The counselor then helps K.H. turn her
account into a written "trauma narrative" from
which she could deliver these allegations to State
authorities. On February 21, 2018, nearly two
years after Vaughn and K.H. were initially
interviewed, the State filed one count of seconddegree sexual assault and three counts of sexual
indecency against Vaughn, with the supporting
affidavit specifically noting that the allegations
were "recently disclosed during [K.H.'s] therapy
session."
True or not—it appears that K.H.'s sexualcontact allegations against Vaughn were born,
grown, and pruned during these sessions with the

9

counselor. At trial, the defense should have been
able to present this information to the jury to aid
in its assessment of the truth.
Specifically, the defense should have been
able to use prior inconsistent statements
contained in the counseling records to test the
credibility of K.H.'s allegations of sexual contact.
The defense should have been able to illustrate
the specific timing and evolution of K.H.'s
allegations, and to show alternative sources
where the information contained in those
allegations may have come from. Importantly, the
defense (who was prohibited from even knowing
the identity of K.H.'s counselor) should have been
able to subpoena the counselor to the courtroom,
and to examine the counselor about her
continuing requests for "new memories" from
K.H. and her mother. The defense should have
been able to ask about the counselor's
methodology, and to potentially bring in an
expert of his own to show whether the counselor's
methodology might have led to a false accusation.
The jury should have heard all this
information, but it didn't. All it heard about the
counseling was that K.H. had previously denied
the allegations. The rest of the evidence was kept
from both the defense and the jury based on an
assertion of K.H.'s psychotherapist privilege. But
even without his best evidence, Vaughn
successfully defended against three of the four
charges at trial, and the jury gave Vaughn the
minimum sentence for the one charge he was
convicted of. If Vaughn had been able to use the
information from the counseling to support his

10

defense, the jury may very well have acquitted
him.
2020 Ark. 313, 12-14, 608 S.W.3d 569, 576-577

11

REASONS FOR GRANTING THE WRIT AND ARGUMENT
THE CONSTITUTIONAL RIGHT TO PRESENT A DEFENSE
PROHIBITS A STATE FROM DECLARING A SEXUAL ASSAULT
ACCUSER'S COUNSELING RECORDS ABSOLUTELY PRIVILEGED
WHEN THE COUNSELING IS USED TO DEVELOP THE
ACCUSER'S TESTIMONY AND THE COUNSELING IS
ANNOUNCED AS THE DEVICE BY WHICH THE ACCUSATION IS
DEVELOPED.
This case presents this Court with an opportunity to more fully
develop the contours of law when the constitutional right to present a
defense — an amalgam of the rights of due process, confrontation and
compulsory process under the Fifth, Sixth and Fourteenth
Amendments— collides with a state's claim of absolute privilege in
counseling, even records having the effect — or even the purpose— of
developing the accuser's testimony.
In this case, the Arkansas Supreme Court took the strictest
possible interpretation of this Court's decisions in Pennsylvania v.

Ritchie, 480 U.S. 379, 107 S.Ct. 989 (1987), and Jaffee v. Redmond,
518 U.S. 1, 116 S.Ct. 1923 (1996), to the detriment of the numerous
cases supporting and enforcing the right to present a defense. Rather,

12

the Arkansas Supreme Court has confirmed its doctrine that a privilege
under Rule 503 of the Arkansas Rules of Evidence is absolute, absent a
waiver, even when the counseling regimen doubled as an investigation
and the prosecution in its affidavit for a warrant of arrest explicitly
designated the counseling as the basis for development of the
accusation.

This absolute privilege is unjustified by Ritchie, Jaffee

and the cases enforcing the right to present a defense. What happened
in Vaughn's case is an example of why such a privilege should not be
regarded as absolute.

This Court should grant certiorari to further

delineate the law and to hold that the right to present a defense cannot
be automatically defeated by an assertion of privilege.
As the Statement of the Case describes, Vaughn had come under
suspicion for sexual assault. However, the suspected victim, his
girlfriend's nine year old daughter, denied any sexual assault had
occurred. Vaughn was not charged, but the child was sent to
counseling. Over the ensuing months, her testimony was developed
and eventually established as sufficient for charging Vaughn.
Vaughn sought the counseling records before the trial court and

13

was denied all access, renewing the requests during trial, including
when the child discussed the counseling in her testimony.

The trial

judge held that the records were absolutely privileged, while conceding
that the defense would be interested in the records. On appeal, the
Arkansas Court of Appeals granted access for purpose of writing the
appeal. That court eventually held that although Vaughn was entitled
to have had them, the denial was harmless error. However, on review,
a majority of the Arkansas Supreme Court took the position that:
We must now consider whether Vaughn is
constitutionally entitled to disclosure of the
privileged records. He contends this issue
implicates the rights to confrontation and
compulsory process under the Sixth Amendment
and due process under the Fourteenth
Amendment. He also asserts violation of our
analogous provisions in Article 2, Sections 8 and
10 of the Arkansas Constitution.
Relying on Jaffee, we previously held that
the psychotherapist privilege preempts the need
to discover all admissible evidence. See Johnson
v. State, 342 Ark. 186, 196–97, 27 S.W.3d 405,
412 (2000). In other words, the privilege is
paramount to the need to gain access to the
privileged material for evidentiary purposes. Id.;
see also Kinder v. White, 609 Fed. App'x 126, 130
(4th Cir. 2015) ("the public benefit produced by
the recognition of the psychotherapist-patient

14

privilege is sufficiently weighty to trump the cost
to the administration of justice of precluding the
use of relevant evidence"). Vaughn seeks to
distinguish Johnson on the basis that the
prosecution had access to K.H.'s records. See
Johnson, 342 Ark. at 197–98, 27 S.W.3d at 413.
Given that the State cannot waive the patient's
privilege—and K.H. did not waive the privilege
here—we do not find that distinction persuasive.
See supra.
Under Ritchie, due process and compulsory
process would require the State to turn over the
evidence in its possession that is both favorable to
Vaughn and material to guilt or punishment if
the Arkansas statute allowed for disclosure. See
Holland, 2015 Ark. 341, at 17, 471 S.W.3d at 189
(citing Ritchie, 480 U.S. at 52, 107 S.Ct. 989).
Unlike the statute in Ritchie, however, the
privilege of private psychotherapy records has not
been qualified by the legislature. Indeed, it
remains absolute. See Ark. R. Evid. 503; compare
Taffner v. State, 2018 Ark. 99, at 12, 541 S.W.3d
430, 437 (statute allowing disclosure of certain
DHS records requires in camera review under
Ritchie). Moreover, the record does not show that
the State truly had access to the records. Indeed,
the prosecution stated it obtained the records
only to comply with the court's disclosure order
for in camera review. As the State points out, this
assertion was unopposed by Vaughn below.
The right to confrontation under the Sixth
Amendment guarantees a defendant an
opportunity for effective cross-examination and
the right to face those who testify against him.
See Ritchie, 480 U.S. at 51, 107 S.Ct. 989

15

(plurality opinion). The Ritchie Court flatly
rejected the claim that a defendant is entitled to
access confidential records simply to aid in crossexamination: "[T]he Confrontation Clause only
guarantees ‘an opportunity for effective crossexamination, not cross-examination that is
effective in whatever way, and to whatever extent
the defense might wish.' " Id. at 53, 107 S.Ct. 989,
(quoting Delaware v. Fensterer, 474 U.S. 15, 20,
106 S.Ct. 292, 88 L.Ed.2d 15 (1985) (emphasis in
original)). The Court specifically noted the ability
to question adverse witnesses does not include
the power to require the pretrial disclosure of any
and all information that might be useful in
contradicting unfavorable testimony. Id. at 53,
107 S.Ct. 989. Indeed, the Confrontation Clause
has never been recognized as an independent
method of enforcing pretrial disclosure of
impeachment information. United States v.
Wright, 866 F.3d 899, 912 n.3 (8th Cir. 2017)
(citing Ritchie, 480 U.S. at 52, 107 S.Ct. 989).
Vaughn contends he needed access to the records
to show that K.H. did not initially disclose the
abuse and in fact denied it. He essentially seeks
to bootstrap the trial right to confront witnesses
into a pretrial discovery right. This claim does not
place the right to confrontation at issue and thus
we reject Vaughn's argument.
In sum, we reject Vaughn's argument that
Ritchie requires an in camera examination of
records and communications shielded by the
absolute psychotherapist-patient privilege.
Affirmed; court of appeals opinion vacated
2020 Ark. 313, 9-11, 608 S.W.3d at 574-575

16

Even assuming arguendo the correctness of the statement that the
Arkansas General Assembly has not created a Ritchie type exception for
such records, that should not be the end of the inquiry. Perhaps the
most salient reason is that the prosecution itself put the records at
issue when it set forth the claims developed after over a year of
counseling as the basis for the charge. This had the effect of
transmuting the shield of privilege into a sword, a practice forbidden by
this Court. E.g. Mitchell v. United States, 526 U.S. 314, 322, 119 S.Ct.
1307, 1312 (1999).

The Ritchie right should be expanded to include

the circumstances where a state purports to make records absolutely
privileged.
The Arkansas Supreme Court has also misapprehended Jaffee as
sustaining an absolute privilege. Although Jaffee recognized a federal
psychotherapist privilege, it was a civil case and did not deal with
constitutional issues at all.

In fact, the Jaffee court noted:

These considerations are all that is

17

necessary for decision of this case. A rule that
authorizes the recognition of new privileges on a
case-by-case basis makes it appropriate to define
the details of new privileges in a like manner.
Because this is the first case in which we have
recognized a psychotherapist privilege, it is
neither necessary nor feasible to delineate its full
contours in a way that would "govern all
conceivable future questions in this area."
518 U.S. 1, 18, 116 S.Ct. 1923, 1932
Moreover, the situation presented in this case is precisely evoked
by Justice Scalia's dissent, joined by Chief Justice Rehnquist:
The Court has discussed at some length the
benefit that will be purchased by creation of the
evidentiary privilege in this case: the
encouragement of psychoanalytic counseling. It
has not mentioned the purchase price: occasional
injustice. That is the cost of every rule which
excludes reliable and probative evidence—or at
least every one categorical enough to achieve its
announced policy objective. In the case of some of
these rules, such as the one excluding confessions
that have not been properly "Mirandized," see
Miranda v. Arizona, 384 U.S. 436, 86 S.Ct. 1602,
16 L.Ed.2d 694 (1966), the victim of the injustice
is always the impersonal State or the faceless
"public at large." For the rule proposed here, the
victim is more likely to be some individual who is
prevented from proving a valid claim—or (worse
still) prevented from establishing a valid defense.

18

The latter is particularly unpalatable for those
who love justice, because it causes the courts of
law not merely to let stand a wrong, but to
become themselves the instruments of wrong.
518 U.S. 1, 18-19, 116 S.Ct. 1923, 1932-1933
Of course, there are numerous cases of this Court sustaining the
right to present a defense, including but not limited to Chambers v.

Mississippi, 410 U.S. 284, 93 S.Ct. 1038 (1973); Washington v. Texas,
388 U.S. 14, 87 S.Ct. 1920 (1967); Davis v. Alaska, 415 U.S. 308, 94
S.Ct. 1105 (1974); Rock v. Arkansas, 483 U.S. 44, 107 S.Ct. 2704
(1987); Crane v. Kentucky, 476 U.S. 683, 106 S.Ct. 2142 (1986); and

Holmes v. South Carolina, 547 U.S. 319, 126 S.Ct. 1727 (2006).
This case presents this Court with a real-world example of how an
overexpansive psychotherapy privilege collides with the fundamental
constitutional right to defend oneself.

This Court should grant

certiorari to establish an analysis more consistent with that right,
including— as in this case— that the counseling operated as the
functional equivalent of an investigation and that the prosecution
publicly ascribed the counseling regimen as the basis for the

19

development of the charge, and that consequently Ritchie should be
interpreted to require access to the type of evidence at issue here.
CONCLUSION
Vaughn prays that the Court grant this petition and, upon
plenary consideration, vacate the decision of the Arkansas Supreme
Court and grant all such other relief to which he may be entitled.
TRACY WILL VAUGHN, Petitioner
JEFFREY M. ROSENZWEIG, ESQ.

Counsel of Record

300 Spring St. Suite 310
Little Rock, AR 72201
(501) 372-5247
jrosenzweig@att.net
Attorney for Petitioner

20

APPENDIX A

SUPREME COURT OF ARKANSAS
No.

CR-19-591
Opinion Delivered: October

TRACY WILL VAUGHN
V.
STATE OF ARKANSAS

8, 2020

APPELLANT APPEAL FROM THE WHITE
COUNTY CIRCUIT COURT
[NO. 73CR-18-151]
HONORABLE ROBERT
APPELLEE EDWARDS, JUDGE
AFFIRMED; COURT OF APPEALS
OPINION VACATED.

SHAWN A. WOMACK, Associate Justice

Tracy Will Vaughn was convicted of second-degree sexual assault and sentenced to
sixty months’ imprisonment. This appeal centers on his victim’s therapy records. We hold
that the records are protected from disclosure by the absolute psychotherapist-patient
privilege in Arkansas Rule of Evidence 503. The conviction is affirmed.
I.
In February 2018, Vaughn was charged with sexually assaulting nine-year-old K.H.
He was also charged with three counts of sexual indecency with a child, which involved
K.H. and her friend, B.W. The White County Sheriff’s Office initiated an investigation in
June 2016 following a report from B.W.’s father. The girls were interviewed at the Child
Safety Center in Searcy.1 During the interview, B.W. stated that Vaughn made the girls
1

Child Safety Centers are part of a statewide program to provide a comprehensive
and coordinated response to child abuse investigations. See Ark. Code Ann. § 9-5-102

touch each other inappropriately while they were nude in his pool. At that time, K.H.
denied any sexual contact by Vaughn. When Vaughn was interviewed by police, he
admitted that he touched K.H.’s genitals three times and that she had touched his penis once
through clothing. Vaughn stated that K.H. had crawled on top of him in bed and “hunched”
him. He also admitted to becoming aroused when K.H. danced “provocatively” near him.
The investigator’s affidavit, attached to the criminal information, recounted the
admissions from the June 2016 investigation. The affidavit noted that K.H. “recently
disclosed during her therapy session that [Vaughn] exposed his penis and made her touch it
[and] that she touched his penis multiple times while she was swimming in his pool.” Citing
the reference to K.H.’s therapy sessions, Vaughn moved for disclosure of her medical and
counseling records on April 18, 2018. He asserted a right to the records under the state and
federal constitutions. He also argued that the psychotherapist-patient privilege did not apply
and had been waived or estopped by the prosecution. Citing Pennsylvania v. Ritchie, 480
U.S. 39 (1987), and Brady v. Maryland, 373 U.S. 83 (1963), Vaughn sought to compel the
State to disclose the records or, alternatively, requested the court to conduct an in camera
review for exculpatory or impeachment material.
At a pretrial hearing on May 16, the circuit court stated the records would be
submitted for an in camera review under Ritchie. The record is unclear on when or how this
decision arose and whether the court ordered the prosecution to obtain the records. In any
event, the State arrived at the hearing with K.H.’s therapy records spanning from 2011

(Repl. 2016). The Center conducts forensic interviews that are not subject to the privilege
at issue here.
2

through 2018. The first set of records were timestamped on May 15—the day before the
hearing. The second set of records included a subpoena dated May 10. At Vaughn’s request,
the State was instructed to determine whether B.W. had any therapy records. Her records,
dating before and after the alleged incident with Vaughn, were obtained a week later
following a subpoena from the prosecutor.
At the next hearing, Vaughn argued the records were not privileged because the
therapy was conducted at the insistence or sponsorship of the State. In response, the
prosecutor informed the court that the girls had previously been treated by the same
providers and returned to their therapists after the alleged incidents on their own accord.
The prosecutor also stated that “up until the Court asked the State to get the records, we
did not have access, we did not seek to admit those records[.] . . . And we would argue
[K.H. and B.W.] have not waived that privilege that allows them to get assistance that they
need, other than if there is something exculpatory to the Defendant.”
The court rejected the claim that the victims were sent to therapy for investigative
purposes because many of the records were created years before the allegations against
Vaughn arose. Ruling from the bench, the court held that the therapy records were
absolutely privileged under Arkansas Rule of Evidence 501 and Arkansas Code Annotated
§ 17-27-311 (Repl. 2018).2 It made no determination regarding the existence of any
exculpatory material, but noted it read the records and tabbed significant pages for appellate
review. The therapy records were entered into the record as sealed court exhibits. The jury
2

The circuit court cited Rule 501 but ruled that the records fell under the patient
and psychotherapist privilege. That privilege is found within Rule 503 and is the privilege
at issue in this case.
3

subsequently convicted Vaughn of sexually assaulting K.H. in the second degree and
sentenced him to sixty months’ imprisonment. He was acquitted of two counts of sexual
indecency; the third was dismissed on directed verdict.3
Vaughn’s appeal was initially considered by the Arkansas Court of Appeals. See
Vaughn v. State, 2020 Ark. App. 185, 598 S.W.3d 549. It determined that Arkansas privilege
law did not absolutely shield the records in this case and that the circuit court should have
conducted an in camera review for favorable evidence under Brady. The court of appeals
nevertheless affirmed the conviction after reviewing the records and finding they did not
satisfy Brady’s materiality requirement. This was not an in camera review. Instead, the court
of appeals gave the parties full access to the sealed records prior to briefing. We cannot
condone the court of appeals’ troubling approach to the victims’ records.4 As the Ritchie
Court explained:
To allow full disclosure to defense counsel in this type of case would sacrifice
unnecessarily the [State’s] compelling interest in protecting its child abuse
information. If the [] records were made available to defendants, even through
counsel, it could have a seriously adverse effect on [Arkansas’s] efforts to
uncover and treat abuse. . .. The [State’s] purpose would be frustrated if this
confidential material had to be disclosed upon demand to a defendant charged
with criminal child abuse, simply because a trial court may not recognize
exculpatory evidence. Neither precedent nor common sense requires such a
result.
Ritchie, 480 U.S. at 60–61 (emphasis added).

3

Because Vaughn was acquitted of the count involving B.W., we will refer only to
K.H.’s records going forward. However, the same analysis applies to B.W.’s records.
4
The court of appeals recently cited its decision in an order granting a defendant
access to his victim’s sealed records. See Turnbo v. State, No. CR-20-505 (Order, Sept. 9,
2020). For the reasons explained by Ritchie, infra, such orders are inappropriate and can no
longer stand.
4

We granted Vaughn’s petition for review and now consider this appeal as though it
was originally filed in this court. See Martin v. Smith, 2019 Ark. 232, at 2, 576 S.W.3d 32.
A circuit court’s ruling on the admissibility of evidence will be reviewed for abuse of
discretion. See Vidos v. State, 367 Ark. 296, 304, 239 S.W.3d 467, 474 (2006). Questions
involving the interpretation of law will be reviewed de novo. See Holt v. McCastlain, 357 Ark.
455, 460–61, 182 S.W.3d 112, 116 (2004).
II.
Vaughn alleges two overarching errors in the circuit court’s determination that
K.H.’s therapy records were protected from disclosure by the psychotherapist-patient
privilege. He first contends the privilege was waived. Vaughn next argues that his
constitutional rights of confrontation, compulsory process, and due process warrant
provision of all confidential records for an in camera examination under Ritchie. The State
objects to the waiver argument and insists that K.H. did not waive the privilege. We agree
with the circuit court that the psychotherapist-patient privilege bars Vaughn’s access to the
records and reject the assertion that an in camera evaluation is required.
A.
All fifty states, the District of Columbia, and the United States Supreme Court have
recognized some form of a psychotherapist-patient privilege. See Jaffee v. Redmond, 518 U.S.
1, 12 (1996). The policy behind the privilege is to encourage patients to communicate
openly with their therapists and to prevent disclosure of the patient’s infirmities. See State v.
Sypult, 304 Ark. 5, 8, 800 S.W.2d 402, 403 (1990). Indeed, “[e]ffective psychotherapy . . .
depends upon an atmosphere of confidence and trust.” Jaffee, 518 U.S. at 10. The privilege

5

serves the greater public interest by facilitating effective mental health care, which is “a
public good of transcendent importance.” Id. at 11. In Arkansas, the privilege is provided
in Arkansas Rule of Evidence 503(b):
A patient has a privilege to refuse to disclose and to prevent any other person
from disclosing his medical records or confidential communications made for
the purpose of diagnosis or treatment of his physical, mental or emotional
condition, including alcohol or drug addiction, among himself, physician or
psychotherapist, and persons who are participating in the diagnosis or
treatment under the direction of the physician or psychotherapist, including
members of the patient’s family.
This privilege governs in both criminal and civil state court proceedings. See Holland v. State,
2015 Ark. 341, at 14, 471 S.W.3d 179, 188; Ark. R. Evid. 101. In addition to the
evidentiary privilege, Arkansas statutes also provide that “confidential relations and
communications” between a therapist and client “are placed upon the same basis as those
between an attorney and a client.” Ark. Code Ann. § 17-27-311(a) (counselors); Ark. Code
Ann. § 17-97-105(a) (Repl. 2018) (psychologists).
The parties do not dispute that K.H.’s therapy records fall within the scope of Rule
503. Vaughn instead challenges whether the privilege was waived. The patient may of
course waive the privilege by voluntarily disclosing or consenting to disclosure of any
significant part of the privileged matter. See Ark. R. Evid. 510. But as the prosecution
emphasized at the second pretrial hearing, K.H. did not waive the privilege. Vaughn
nevertheless argues the privilege was waived by the affidavit’s reference to details K.H.
disclosed during therapy and by the child’s testimony during cross-examination. In our
view, the privilege was not waived by these acts.

6

Rule 503 gives the patient the privilege. See McKenzie v. Pierce, 2012 Ark. 190, at 7,
403 S.W.3d 565, 570; Ark. R. Evid. 503(b). In other words, the State cannot waive K.H.’s
privilege. Id. Though Vaughn makes the conclusory assertion that mandated reporter laws
waive the patient’s privilege, we decline to make such a ruling in this case. We simply find
no basis to conclude that the affidavit’s reference in this case waives K.H.’s privilege.
We are similarly unpersuaded by the assertion that K.H. waived the privilege in
response to cross-examination. It is well settled that a witness in a criminal case does not
waive the privilege by testifying because the State, not the witness, is the party in a criminal
proceeding.5 See Collins v. State, 2019 Ark. 110, at 6, 571 S.W.3d 469, 472; Ark. R. Evid.
503(d). As the Fifth Circuit has explained, a “defendant does not get to crack open every
confidential communication with a victim’s psychotherapist simply because that victim may
have discussed facts with her psychotherapist that are relevant to the issues at trial.” United
States v. Murra, 879 F.3d 669, 680 (5th Cir. 2008). “[A]lthough a patient may not refuse to
disclose any relevant fact within her knowledge merely because she discussed those facts in
a confidential communication with her psychotherapist, she cannot be compelled to answer
the question, ‘What did you say to your psychotherapist?’” Id. (citing Upjohn Co. v. United
States, 449 U.S. 383, 395–96 (1981)).
K.H. was forthcoming with factual responses to Vaughn’s cross-examination, but she
did not reveal any confidential communications. She admitted that she attended therapy

5

Vaughn argues in his supplemental brief that the State can waive the privilege for a
victim because the victim is a de facto party to the criminal proceeding. We will not consider
this argument as it was not briefed at the court of appeals. See Fuson v. State, 2011 Ark. 374,
at 8–9, 383 S.W.3d 848, 854.
7

following the sexual assault, but she did not testify to any privileged communications
discussed with her therapists. Vaughn was aware of K.H.’s non-privileged statements to the
Child Safety Center denying any sexual assault. He also knew that K.H. disclosed details of
sexual assault to a therapist that were mentioned in the criminal affidavit. When asked, K.H.
provided the names of her new providers and an estimate of how many times she discussed
the sexual assault with them. She also admitted to the discrepancy between the affidavit and
the initial Child Safety Center interviews. K.H. explained that she was too scared to admit
the abuse at the interviews immediately following the assault.
We do not find that the disclosure to the circuit court waived the privilege in this
case. Though the record is not clear on how or when the records were compelled from
K.H.’s providers, the prosecution clearly stated that K.H. did not waive the privilege. It
likewise emphasized that it did not have access to the records until the court ordered
production. Indeed, the dates of the subpoenas and timestamps indicate that the records
were obtained near the time of the in camera review and well after the criminal information
was filed. A claim of privilege is not defeated by a disclosure which was compelled
erroneously or made without opportunity to claim the privilege. See Ark. R. Evid. 511. We
conclude the therapy records and communications are privileged under Rule 503.
B.
We must now consider whether Vaughn is constitutionally entitled to disclosure of
the privileged records. He contends this issue implicates the rights to confrontation and
compulsory process under the Sixth Amendment and due process under the Fourteenth

8

Amendment. He also asserts violation of our analogous provisions in Article 2, Sections 8
and 10 of the Arkansas Constitution.
Relying on Jaffee, we previously held that the psychotherapist privilege preempts the
need to discover all admissible evidence. See Johnson v. State, 342 Ark. 186, 196–97, 27
S.W.3d 405, 412 (2000). In other words, the privilege is paramount to the need to gain
access to the privileged material for evidentiary purposes. Id.; see also Kinder v. White, 609
Fed. App’x 126, 130 (4th Cir. 2015) (“the public benefit produced by the recognition of
the psychotherapist-patient privilege is sufficiently weighty to trump the cost to the
administration of justice of precluding the use of relevant evidence”). Vaughn seeks to
distinguish Johnson on the basis that the prosecution had access to K.H.’s records. See Johnson,
342 Ark. at 197–98, 27 S.W.3d at 413. Given that the State cannot waive the patient’s
privilege—and K.H. did not waive the privilege here—we do not find that distinction
persuasive. See supra.
Under Ritchie, due process and compulsory process would require the State to turn
over the evidence in its possession that is both favorable to Vaughn and material to guilt or
punishment if the Arkansas statute allowed for disclosure. See Holland, 2015 Ark. 341, at 17,
471 S.W.3d at 189 (citing Ritchie, 480 U.S. at 52). Unlike the statute in Ritchie, however,
the privilege of private psychotherapy records has not been qualified by the legislature.
Indeed, it remains absolute. See Ark. R. Evid. 503; compare Taffner v. State, 2018 Ark. 99, at
12, 541 S.W.3d 430, 437 (statute allowing disclosure of certain DHS records requires in
camera review under Ritchie). Moreover, the record does not show that the State truly had
access to the records. Indeed, the prosecution stated it obtained the records only to comply

9

with the court’s disclosure order for in camera review. As the State points out, this assertion
was unopposed by Vaughn below.
The right to confrontation under the Sixth Amendment guarantees a defendant an
opportunity for effective cross-examination and the right to face those who testify against
him. See Ritchie, 480 U.S. at 51 (plurality opinion). The Ritchie Court flatly rejected the
claim that a defendant is entitled to access confidential records simply to aid in crossexamination: “[T]he Confrontation Clause only guarantees ‘an opportunity for effective
cross-examination, not cross-examination that is effective in whatever way, and to whatever
extent the defense might wish.’” Id. at 53, (quoting Delaware v. Fensterer, 474 U.S. 15, 20
(1985) (emphasis in original)). The Court specifically noted the ability to question adverse
witnesses does not include the power to require the pretrial disclosure of any and all
information that might be useful in contradicting unfavorable testimony. Id. at 53. Indeed,
the Confrontation Clause has never been recognized as an independent method of enforcing
pretrial disclosure of impeachment information. United States v. Wright, 866 F.3d 899, 912
n.3 (8th Cir. 2017) (citing Ritchie, 480 U.S. at 52). Vaughn contends he needed access to
the records to show that K.H. did not initially disclose the abuse and in fact denied it. He
essentially seeks to bootstrap the trial right to confront witnesses into a pretrial discovery
right. This claim does not place the right to confrontation at issue and thus we reject
Vaughn’s argument.
In sum, we reject Vaughn’s argument that Ritchie requires an in camera examination
of records and communications shielded by the absolute psychotherapist-patient privilege.
Affirmed; court of appeals opinion vacated.

10

HART and WYNNE, JJ., dissent.

11

SUPREME COURT OF ARKANSAS
No.

CR-19-591
Opinion Delivered:

TRACY WILL VAUGHN

October 8, 2020

APPEAL FROM THE WHITE
APPELLANT COUNTY CIRCUIT COURT
[NO. 73CR-18-151 ]

V.
HONORABLE ROBERT EDWARDS,
JUDGE

STATE OF ARKANSAS
APPELLEE

DISSENTING OPINION.

JOSEPHINE LINKER HART, Associate Justice

I dissent. In sum, where a charge of sexual assault only comes after nearly a year of
prompting and pruning by the victim’s counselor, before which the victim had specifically
and repeatedly denied that any sexual assault had ever occurred, there is no fair trial for the
defendant unless he has access to the victim’s counselor and related counseling records.
I. Background
Tracy Vaughn stands convicted of a sex crime based on the allegation that he touched
K.H.’s vagina for purposes of “sexual gratification” while he was giving her a bath. This
allegation against Vaughn did not come from K.H., at least not initially. The State’s pursuit
of Vaughn began after the father of one of K.H.’s friends, upset after learning his daughter
had been skinny-dipping with K.H. in the pool at Vaughn’s residence, made a report to
police. Vaughn submitted to an interview with police on June 13, 2016—an interview
which quickly turned into an interrogation. Despite the interrogation continuing for hours
on end, with the officers repeatedly accusing Vaughn and baiting him to acknowledge some

form of guilt,1 Vaughn admitted to no criminal activity. One of the many things that came
up during Vaughn’s interrogation was the aforementioned incident in the bathtub. Vaughn
acknowledged giving K.H. a bath, but he denied that any touching was for the purpose of
sexual gratification.
K.H. was also interviewed by State investigators. Whatever the substance of that
interview was, the State apparently deemed K.H.’s account insufficient to commence a
criminal prosecution, as no charges were filed against Vaughn at that time. However, K.H.
was then sent to a private counselor, and the records from those counseling sessions are
contained in the record on appeal.
As did the dissent in Johnson v. State, I find the content of these counseling records
too important to ignore. 342 Ark. 186, 204–05, 27 S.W.3d 405, 417 (2000) (Brown, J.,
dissenting). Vaughn’s theory of defense at trial was that K.H.’s allegations of sexual contact
were false and spurred by other adults in the wake of the skinny-dipping revelation. The
contents of these counseling records reveal a great deal of evidence that would have been
relevant to and supportive of Vaughn’s theory.
The records show that for the first several months of counseling, K.H. specifically
and repeatedly denies that Vaughn had ever touched her inappropriately. They also show
that by around the six-month mark, the counselor had begun prodding K.H. and her mother
to let the counselor know about any “new memories” K.H. may have. After nearly another
six months of this treatment, K.H. reportedly tells her counselor, “I’m going to come clean,”
1

The trial judge noted from the recording that the interrogating officer was “making
somewhat of a fool of himself.”
2

reporting what the counselor describes as “three new parts” of her sexual abuse, one of
which is apparently the bathtub incident. The counselor notes, “Client was scared to tell
mom 3 new parts of the sexual abuse. With my help, client told mom about ‘Meany’ …
Mom reacted appropriately and praised client for sharing with her and being brave.” The
counselor then helps K.H. turn her account into a written “trauma narrative” from which
she could deliver these allegations to State authorities. On February 21, 2018, nearly two
years after Vaughn and K.H. were initially interviewed, the State filed one count of seconddegree sexual assault and three counts of sexual indecency against Vaughn, with the
supporting affidavit specifically noting that the allegations were “recently disclosed during
[K.H.’s] therapy session.”
True or not—it appears that K.H.’s sexual-contact allegations against Vaughn were
born, grown, and pruned during these sessions with the counselor. At trial, the defense
should have been able to present this information to the jury to aid in its assessment of the
truth.
Specifically, the defense should have been able to use prior inconsistent statements
contained in the counseling records to test the credibility of K.H.’s allegations of sexual
contact. The defense should have been able to illustrate the specific timing and evolution
of K.H.’s allegations, and to show alternative sources where the information contained in
those allegations may have come from. Importantly, the defense (who was prohibited from
even knowing the identity of K.H.’s counselor) should have been able to subpoena the
counselor to the courtroom, and to examine the counselor about her continuing requests
for “new memories” from K.H. and her mother. The defense should have been able to ask
3

about the counselor’s methodology, and to potentially bring in an expert of his own to show
whether the counselor’s methodology might have led to a false accusation.
The jury should have heard all this information, but it didn’t. All it heard about the
counseling was that K.H. had previously denied the allegations. The rest of the evidence
was kept from both the defense and the jury based on an assertion of K.H.’s psychotherapist
privilege. But even without his best evidence, Vaughn successfully defended against three
of the four charges at trial, and the jury gave Vaughn the minimum sentence for the one
charge he was convicted of. If Vaughn had been able to use the information from the
counseling to support his defense, the jury may very well have acquitted him.
II. Federal Constitutional Rights
Withholding this information from Vaughn and from the jury violated Vaughn’s
constitutional rights. As the Supreme Court of the United States has observed, Vaughn has
a constitutional right to present a complete defense at trial:
Whether rooted directly in the Due Process Clause of the Fourteenth
Amendment, Chambers v. Mississippi, [410 U.S. 284 (1973)], or in the
Compulsory Process or Confrontation clauses of the Sixth Amendment,
Washington v. Texas, 388 U.S. 14, 23 (1967); Davis v. Alaska, 415 U.S. 308,
(1974), the Constitution guarantees criminal defendants “a meaningful
opportunity to present a complete defense.” California v. Trombetta, 467 U.S.,
at 485; cf. Strickland v. Washington, 466 U.S. 668, 684–685 (1984) (“The
Constitution guarantees a fair trial through the Due Process Clauses, but it
defines the basic elements of a fair trial largely through the several provisions
of the Sixth Amendment”). We break no new ground in observing that an
essential component of procedural fairness is an opportunity to be heard. In re
Oliver, 333 U.S. 257, 273 (1948); Grannis v. Ordean, 234 U.S. 385 (1914).
That opportunity would be an empty one if the State were permitted to
exclude competent, reliable evidence bearing on the credibility of a confession
when such evidence is central to the defendant’s claim of innocence. In the
absence of any valid state justification, exclusion of this kind of exculpatory
evidence deprives a defendant of the basic right to have the prosecutor’s case
encounter and “survive the crucible of meaningful adversarial testing.” United
4

States v. Cronic, 466 U.S. 648, 656, (1984). See also Washington v. Texas,
supra, 388 U.S., at 22–23.
Crane v. Kentucky, 476 U.S. 683, 690–91 (1986) (parallel citations omitted). Further,
Vaughn has a constitutional right to exculpatory and impeachment material within the
State’s possession. Brady v. Maryland, 373 U.S. 83, 87 (1963) (“We now hold that the
suppression by the prosecution of evidence favorable to an accused upon request violates
due process where the evidence is material either to guilt or to punishment, irrespective of
the good faith or bad faith of the prosecution.”). He also has a constitutional right to an in
camera hearing to determine whether information subject to State confidentiality law
contains any such exculpatory or impeachment material. Pennsylvania v. Ritchie, 480 U.S.
39 (1987).
Haling Vaughn to trial on these allegations while denying him access to any of the
related counseling information violates the aforementioned constitutional guarantees.
Vaughn has not even received the in camera review contemplated by Ritchie, or at least he
did not receive a ruling on whether there was any exculpatory or impeaching material
contained in the counseling records. The trial judge did note that there were “significant
pages” that would be of interest to the defense contained in the counseling records, and
placed them under seal for the record on appeal.
Note that there was no physical or medical evidence of any sex crime in this case.
The only direct evidence was the allegation of sexual contact by K.H., and that allegation
only came after a year’s worth of undying efforts from K.H.’s counselor. If what the
counselor finally procured from K.H. is the version of events that is to be believed, after
K.H. had so repeatedly denied those very same allegations, then the substance of the
5

counselor’s actions should have been part of the evidence presented to the jury. Without
that, there is no fair trial in a case like this one. Put simply, the State’s case against Vaughn
has not withstood the “crucible of meaningful adversarial testing.” Crane, supra. There is
no valid state justification for withholding this evidence from the defense in this case, and
refusing to remedy this violation invites the State to use private counseling as an inaccessible
surrogate for a proper law enforcement investigation.
For these reasons, Vaughn’s conviction cannot stand. Procedurally, because the trial
judge never ruled as to whether the records contained any exculpatory or impeaching
information, we should reverse and remand for further proceedings from that point in the
litigation. Surely Vaughn is at least entitled to the constitutional protection afforded to the
appellant in Ritchie.
III. Psychotherapist Privilege under Arkansas State Law
As a matter of state law, there are problems with the assertion and acknowledgement
of privilege over K.H.’s counseling records.
A. Attachment
First, there is at least a question of fact as to whether privilege attached to the
communications between K.H. and the counselor in the first place. Rule 503 of the
Arkansas Rules of Evidence, which details the physician-patient privilege and connected
rules, states:
A patient has a privilege to refuse to disclose and to prevent any other
person from disclosing his medical records or confidential communications
made for the purpose of diagnosis or treatment of his physical, mental or
emotional condition, including alcohol or drug addiction, among himself,
physician or psychotherapist, and persons who are participating in the
6

diagnosis or treatment under the direction of the physician or psychotherapist,
including members of the patient’s family.
Ark. R. Evid. 503(b). The privilege may be claimed by the patient, his guardian or
conservator, or the personal representative of a deceased patient, and a patient has a privilege
to prevent any other person from disclosing confidential communications made for the
purpose of diagnosis or treatment of his mental or emotional condition. Ark. R. Evid.
503(c); White v. State, 367 Ark. 595, 242 S.W.3d 240 (2006). However, Rule 503(b) does
not grant a privilege to “any information,” only “communications” between the patient and
doctor, and confidential ones at that. Id.
Rule 503 further provides in pertinent part:
(a)(4) A communication is “confidential” if not intended to be
disclosed to third persons, except persons present to further the interest of the
patient in the consultation, examination, or interview, persons reasonably
necessary for the transmission of the communication, or persons who are
participating in the diagnosis and treatment under the direction of the
physician or psychotherapist, including members of the patient’s family.
Note that privilege is only available for confidential communications “made for the
purpose of diagnosis or treatment,” and communications are only confidential where they
are “not intended to be disclosed to third persons[.]”
Here, it challenges reason to simply accept that K.H.’s communications with the
counselor are privileged. In light of K.H.’s initial and continued denials of any wrongdoing
by Vaughn, there is a very real question as to whether K.H. was sent to counseling for
purposes of “diagnosis or treatment,” or whether she was sent there to be groomed into a
complaining witness. Further, one cannot say that the communications between K.H. and
Vaughn were confidential, as there is every indication that the communications were
7

intended to be disclosed to State investigators. K.H. interviewed with State investigators
about these very same allegations, then she was sent to counseling, and then eventually she
was sent back to State investigators after she “came clean” during counseling. These are
factual issues into which the defense, especially in a case like this one, must be able to
inquire.
B. Waiver
To the extent the communications between K.H. and the counselor were privileged,
the privilege was waived by the time Vaughn was charged and brought to trial. Ark. R.
Evid. 510 provides as follows:
A person upon whom these rules confer a privilege against disclosure
waives the privilege if he or his predecessor while holder of the privilege
voluntarily discloses or consents to disclosure of any significant part of the
privileged matter. This rule does not apply if the disclosure itself is privileged.
The supporting affidavit from Vaughn’s charging document makes it plain: the State
charged Vaughn after being presented with allegations by K.H. that were “recently disclosed
during her therapy session.” The information developed during the counseling sessions is
the same information the State used to charge Vaughn—certainly a “significant part of the
privileged matter.” Accordingly, any privilege over the evidence in question was waived,
and the circuit court’s withholding of the evidence on that basis was erroneous.
IV. Conclusion
For the reasons set forth above, we should reverse and remand for further
proceedings. In the meantime, perhaps the Supreme Court of the United States could
address what seems to be an increasingly prevalent situation: Where allegations against a
defendant were developed in a purportedly privileged setting, does the defendant (and the
8

jury) get to know how those allegations developed, or does the assertion of privilege defeat
the defendant’s right to support his defense?
I dissent.

9

SUPREME COURT OF ARKANSAS
No.

CR-19-591
Opinion Delivered: October

TRACY WILL VAUGHN

8, 2020

APPELLANT
V.
STATE OF ARKANSAS

APPEAL FROM THE WHITE
COUNTY CIRCUIT COURT
[NO. 73CR-18-151]
APPELLEE HONORABLE ROBERT
EDWARDS, JUDGE
DISSENTING OPINION.
ROBIN F. WYNNE, Associate Justice

Because I believe that a criminal defendant’s constitutional right to present a
complete defense must outweigh the psychotherapist-patient privilege, I respectfully dissent.
Of course, it is well settled that the government has the obligation to turn over evidence in
its possession that is both favorable to the accused and material to guilt or punishment. Brady
v. Maryland, 373 U.S. 83 (1963). In Pennsylvania v. Ritchie, 480 U.S. 39 (1987), the plurality
expressed no opinion on whether the result “would have been different if the statute had
protected the CYS files from disclosure to anyone, including law-enforcement and judicial
personnel.” Ritchie, 480 U.S. at 57, n.14. The result should be the same. The privilege
must yield to a criminal defendant’s constitutional rights. I would reverse and remand for
the circuit court to conduct an in camera review of the counseling records.

APPENDIX B

FORMAL ORDER
STATE OF ARKANSAS,

)
)

SUPREME COURT

SCT.

)

BE IT REMEMBERED, THAT A SESSION OF THE SUPREME COURT
BEGUN AND HELD, ON FEBRUARY 18, 2021, WAS THE FOLLOWING
PROCEEDING, TO-WIT:

SUPREME COURT CASE NO. CR-19-591
TRACY WILL VAUGHN

APPELLANT

V. APPEAL FROM WHITE COUNTY CIRCUIT COURT – 73CR-18-151
STATE OF ARKANSAS

APPELLEE

APPELLANT’S MOTION FOR ACCELERATED CONSIDERATION OF MOTION
FOR PERMISSION TO INCLUDE SEALED MATERIAL IN PETITION FOR WRIT OF
CERTIORARI IS GRANTED. APPELLANT’S MOTION FOR PERMISSION TO INCLUDE
SEALED MATERIAL IN PETITION FOR WRIT OF CERTIORARI IS DENIED. WYNNE,
J., WOULD GRANT.

IN TESTIMONY, THAT THE ABOVE IS A TRUE COPY OF
THE ORDER OF SAID SUPREME COURT, R E N D E R E D I N
T H E C A S E H E R E I N S T A T E D , I , STACEY PECTOL,
C L E R K O F S A I D SUPREME COURT, H E R E U N T O
SET MY HAND AND AFFIX THE SEAL OF SAID
SUPREME COURT, A T M Y O F F I C E I N T H E C I T Y O F
L I T T L E R O C K , T H I S 18TH DAY OF FEBRUARY, 2021.

CLERK
BY: _______________________________________
DEPUTY CLERK
ORIGINAL TO CLERK
CC: JEFFREY MARX ROSENZWEIG
PAMELA RUMPZ, SENIOR ASSISTANT ATTORNEY GENERAL

APPENDIX C

ARKANSAS COURT OF APPEALS
DIVISION I
No. CR-19-591

Opinion Delivered

TRACY WILL VAUGHN
APPELLANT
V.

March 18, 2020

APPEAL FROM THE WHITE COUNTY
CIRCUIT COURT
[NO. 73CR-18-151]

STATE OF ARKANSAS
APPELLEE

HONORABLE ROBERT
EDWARDS, JUDGE
AFFIRMED

BRANDON J. HARRISON, Judge
This criminal appeal, with a state-law-privilege twist, concerns whether the State
failed to provide material evidence to Vaughn’s defense attorney in violation of Brady v.
Maryland, 373 U.S. 83 (1963). Brady’s essence is that “the suppression by the prosecution
of evidence favorable to an accused upon request violates due process where the evidence
is material either to guilt or to punishment, irrespective of the good faith or bad faith of the
prosecution.” Id. at 87.
A White County Circuit Court jury convicted Tracy Vaughn of sexually assaulting
nine-year-old K.H. and sentenced him to five years’ imprisonment. The jury acquitted
Vaughn on two counts of sexual indecency with a child, charges that involved K.H. and
her friend, B.W. This appeal centers on counseling that K.H. received, the content of
certain records, and whether Vaughn’s counsel should have been allowed access to them.

K.H. received mental-health counseling before and after the events that led to the
sexual-assault charges against Vaughn occurred. Vaughn argued in the circuit court that he
should have been given access to K.H.’s counseling records because they likely contained
evidence favorable to his defense. The court ultimately denied Vaughn access and did not
perform a Brady analysis. The court reasoned that the counseling records were absolutely
privileged under Arkansas Rule of Evidence 5011 and Ark. Code Ann. § 17-27-311 (Repl.
2018).2 Consequently, the circuit court rejected Vaughn’s argument that he was entitled to
potentially exculpatory evidence contained in K.H.’s mental-health records under
Pennsylvania v. Ritchie, 480 U.S. 39 (1987). Ritchie is a post-Brady case that held a defendant
has a due process right to require a state agency to disclose exculpatory or impeachment
evidence that it possesses. Ritchie, 480 U.S. at 57. In this case, the circuit court ultimately
ruled that “the patient/client/therapist privilege is paramount and irrespective of
exculpatory evidence. These [mental-health] records are not subject to inspection.”

1

The circuit court miscited Arkansas Rule of Evidence 501. The psychotherapistpatient privilege of Ark. R. Evid. 503 is at issue in this appeal.
2

This statute states:

(a) For the purposes of this chapter, the confidential relations and communications
between a licensed counselor and a client, a licensed associate counselor and a client,
a licensed marriage and family therapist and a client, or between a licensed associate
marriage and family therapist and a client are placed upon the same basis as those
between an attorney and a client.
(b) Nothing in this chapter shall be construed to require that any privileged
communication be disclosed.

2

The court’s decision was one of federal constitutional magnitude because, in this
case, it was the prosecution who procured the counseling records as best we can tell. More
specifically, the State appears to have provided the disputed counseling records to the court
during a pretrial hearing after procuring them using subpoenas. (More on this later.) It also
appears that neither K.H. (acting through a parent or guardian) nor her health providers
raised any evidentiary privilege to block the prosecuting attorney from receiving confidential
communications that occurred between K.H. and her counselor.
Vaughn argues to this court that the circuit court erred when it denied him access to
the counseling records, which violated his federal and state constitutional rights. Vaughn
seeks a new trial because, in his view, being kept in the dark about the counseling records’
content prejudiced him at trial.
I. K.H.’s Counseling Records
Vaughn appears to have first learned about the counseling issue from an affidavit that
the State attached to its initial criminal information. That affidavit recited that K.H. had
“recently disclosed during her therapy session that Tracy [Vaughn] exposed his penis and made
her touch it.” (Emphasis added.) This revelation prompted Vaughn’s counsel to move the
court to compel the prosecuting attorney to disclose K.H.’s counseling (or mental-health)
records pursuant to due process rights he claimed under the Fourteenth Amendment to the
United States Constitution. See Brady, 373 U.S. 83; United States v. Bagley, 473 U.S. 667
(1985); Ritchie, 480 U.S. 39; article 2, section 8 of the Arkansas Constitution; Arkansas Rules
of Criminal Procedure 17.1(a)(iv) and 17.4(a). In his motion, Vaughn argued that “the
State has waived any privilege, or should be estopped from asserting it, inasmuch as the

3

affidavit accompanying the felony information asserts that an accuser ‘recently disclosed in
her therapy session that Tracy exposed his penis and made her touch it.’” According to
Vaughn, Arkansas’s psychotherapist-patient privilege set forth in Johnson v. State, 342 Ark.
186, 27 S.W.3d 405 (2000), and Holland v. State, 2015 Ark. 341, 471 S.W.3d 179, does not
apply because “the counseling would have been part of the investigative and prosecutorial
process and not independent of it . . . [and] those state law privileges must fall before due
process guarantee set forth in Ritchie.” He therefore asked the circuit court to compel the
State to disclose these records to him. Alternatively, he asked the court to review the records
in camera and assess them for exculpatory or impeachment material.
The circuit court held a pretrial hearing on motions that included Vaughn’s discovery
motion. The prosecuting attorney arrived at the pretrial hearing with K.H.’s counseling
records. The circuit court received them from the prosecutor and placed three exhibits
under seal in three separately sealed envelopes. They are labeled court’s exhibits Nos. 1, 2,
and 3. The first exhibit contains the alleged Brady material that Vaughn says prejudiced his
case when the prosecutor refused to disclose it. Court’s exhibit No. 1 covers K.H.’s records
that were generated by one counselor who treated K.H. from approximately January 2011
through January 2018 (Provider A).
Court’s exhibit No. 2 contains the following: K.H.’s records from a second provider
(Provider B) that were generated in 2018; a copy of a 10 May 2018 subpoena from the
White County Prosecuting Attorney’s Office to the “Keeper of the Records [of Provider
B]”; and a fax transmittal sheet from Provider B to the prosecuting attorney.

4

Court’s exhibit No. 3 consists of: B.W.’s July 2016 records from Provider C, which
is an outpatient service provider, and a White County prosecutor subpoena demanding
those records.
During the pretrial hearing, the prosecuting attorney argued that sealed exhibits 1, 2,
and 3 should not be disclosed to defense counsel:
[Vaughn] acts as if these—both of these girls, the first time they ever go to
treatment is after this case and they are sent there by the State. Both of them were
in treatment with those same providers previously. Now, yes, they did go back
after this happened, but they’ve not been ordered there by the State and we’ve
not—up until the Court asked the State to get the records, we did not have access, we
did not seek to admit those records[.] . . . And we would argue that they [the
victims] have not waived that privilege that allows them to get assistance that they
need, other than if there is something exculpatory to the Defendant. (Emphasis
added.)
The record is not clear on which provider’s records, if any, the court asked the State to get,
in what manner the court communicated its request, or when this occurred. Nor is it clear
whether Vaughn’s counsel was told that the court asked the State to get some of K.H.’s
counseling records, if it in fact did so.
What we do know is that the prosecutor’s office sent a subpoena demanding K.H.’s
records to Provider B and a subpoena demanding B.W.’s records to Provider C. How the
prosecutor procured Provider A’s records (the ones at issue here) is unclear because the
record does not contain a subpoena from the prosecutor’s office as to that provider. We
assume a third subpoena was used but cannot state that as a fact. No party below made a
good record on how the records were procured from the various providers. And no party
made a good record on whether K.H.’s parent(s) or legal guardian(s) were made aware of
what was going on. There is no written authorization in the records from a person legally

5

empowered to permit the State to get confidential health information. Nor, as we have
said, is there anything in the record showing that the three separate care providers, or K.H.
herself through a representative, attempted to resist the subpoenas for the same reasons the
State now says that Vaughn was never entitled to receive them. No statutory authority was
cited, or otherwise obviously invoked, for the disclosure of the confidential information.
Despite the unknowns, we know that defense counsel argued during the hearing
that, among other things, he needed to know “whether they’re telling the truth or not and
that records of treatment would be the best evidence.” He also argued that the recorded
statement Vaughn gave to the police in 2016 contained statements by police officers “about
whether the girls are going to have to go to therapy” and that “some of these [records]
appear to be the records of the therapy that is referred to [in the police interview].” Vaughn
asked to examine the records with the prosecutor “sitting right there so I can discuss
particular issues more cogently . . . and we can do this under seal.”
The court ruled from the bench that the State did not send the girls to therapy “for
investigative purposes” because the “first 118 pages” of the records “occurred in 2011
through ’14, before these allegations came to light in 2016[.]” Although it is clear enough
that the court reviewed the records to some extent, it is not clear to what extent or to what
depth, content-wise, the court did so. In the end, the court ruled from the bench that
K.H.’s records were absolutely privileged under Arkansas law and therefore could not be
disclosed to Vaughn under any circumstance.
In response to Vaughn’s request for a more specific ruling, the court said this:
With respect to Ri[t]chie, that is a case that dealt with the Pennsylvania
statute that made the entire investigative file of the Child Protective Services
6

Agency in Pennsylvania privileged and not specifically address patient/client
records, therapists, interviews. . . . I am going to stand by my ruling, that the
patient/client/therapist privilege is paramount and irrespective of exculpatory
evidence. These records are not subject to inspection of admissibility and your
objection—exceptions are noted. . . . I’m finding that the privilege granted to a
child in seeking therapy with a licensed associate counselor or doctor—I hate to
use this word, trumps the due process, confrontation and other Constitutional
rights you claim. . . . That’s for the Appellate Court to determine if they think
I’m wrong on the privilege issue.
Despite numerous proffers as to what the undisclosed records might contain, the
court rejected all of Vaughn’s requests and arguments to that effect before and during the
trial. During a bench conference held while K.H. was on the stand, Vaughn explained why
court’s exhibit No. 1 (Provider A’s records) would aid his cross-examination.
It is—it is my—it is my belief that . . . the girl has been coached and—
and to make the allegation of touching—touching by Mr. Vaughn, . . . her
testimony is she—she made the claim first only to this Ms.—the counselor
after she’s denied it the second time. Anyway, and then, of course, I’m going
to need the records for that, obviously, you’re denying it[.]
The circuit court replied, in part:
I have made my ruling a number of times that the counseling records
are not admissible and that the statements she made to the counselor were not
admissible. . . . I am not going to let you do anything with the counseling
records based on my prior ruling. Period.
The case was fully tried, and Vaughn was convicted of one count of sexually
assaulting K.H. in the second degree. Vaughn filed his notice of appeal and, in due course,
the record.
After the record was lodged with this court’s clerk, Vaughn’s counsel moved this
court for access to the three sealed court exhibits, which he had never seen. We granted
the motion and allowed both parties access to the sealed exhibits so that they could make

7

informed arguments on appeal regarding the correctness of the circuit court’s decision to
deny Vaughn access to the disputed therapy records.
A. Did the State Access and Withhold K.H.’s Records and Thereby Trigger Brady?
In a typical case—meaning absent a statutory exception, the victim’s consent, or a
court order—a person’s health records are not any more accessible to a prosecuting attorney
than to a defense attorney. Here, however, the prosecuting attorney possessed the records
at issue. Whether that was done at the behest of the circuit court, or on the lawyer’s own
initiative, Brady was triggered. See, e.g., State v. Allen, 1999 WL 5173 (Tenn. Crim. App.
Jan. 8, 1999). But the circuit court did not fully perform a Ritchie/Brady analysis because it
hung its decisional hat solely on Arkansas privilege law. That decision was an error of law
on these facts.
A criminal defendant has a due process “right to put before a jury evidence that might
influence the determination of guilt,” or, in other words, a right to obtain and present
exculpatory evidence. Ritchie, 480 U.S. at 56. In addition, the Sixth Amendment to the
United States Constitution provides a criminal defendant with the right to confront
witnesses, which is achieved through cross-examination. Davis v. Alaska, 415 U.S. 308, 315
(1974). The Arkansas Supreme Court has also recognized that Ark. R. Crim. P. 17.1
requires the State to disclose to defense counsel relevant or exculpatory material “which is
or may come within [its] possession, control, or knowledge[.]” Johnson v. State, 342 Ark.
186, 197, 27 S.W.3d 405, 412–13 (2000), cert. denied, 532 U.S. 944 (2001).
Here is how the Brady process generally works. When a defendant like Vaughn has
made “some plausible showing” that information that the prosecuting attorney or state agent

8

has would be “both material and favorable to his defense,” and the records are not absolutely
privileged under state law, then the defendant is entitled to an in camera review of the
evidence, at a constitutional minimum. Ritchie, 480 U.S. at 58 n.15 (quoting United States
v. Valenzuela-Bernal, 458 U.S. 858, 867(1982)).3 Compare Taffner v. State, 2018 Ark. 99, at
12, 541 S.W.3d 430, 437 (holding that a defendant was entitled to an in camera review of
DHS records involving a victim in a child-rape case when there was a preliminary showing
that the records contained allegedly false accusations by the victim of sexual abuse and
Arkansas statutes involving DHS permitted disclosure in certain circumstances) with Holland,
2015 Ark. 341, at 13–15, 471 S.W.3d at 187–88 (holding private records of victim’s
disclosure of sexual abuse to a therapist were not discoverable under Brady v. Maryland, 373
U.S. 83 (1963)).
In Ritchie, the Pennsylvania legislature only protected the CYS records with a
qualified privilege. Id. at 57–58. Other types of records may be absolutely privileged in
Pennsylvania. See Pa. v. Wilson, 602 A.2d 1290, 1297 (Pa 1992) (holding that defendant
was not entitled to disclosure of victim’s records held by a rape crisis center where those
records were protected by an absolute statutory privilege); N.D. v. Spath, 581 N.W.2d 123,
126 (N.D. 1998) (rejecting defendant’s confrontation clause claim and noting that although
the evidentiary privilege at issue contained some limited exceptions, it did not contain a
general exception for disclosure of records pursuant to court order). But other courts have
found that a defendant’s constitutional rights to a fair trial and to confront the witnesses
against him may override a medical-patient privilege. See, e.g., N.Y. v. Maynard, 363
N.Y.S.2d 384 (Sup. Ct. 1974). The Supreme Court of the United States has recognized
privacy interests and policy justifications for protecting psychotherapist records under the
federal rules of evidence. See, e.g., Jaffee v. Redmond, 518 U.S. 1 (1996). So a victim’s
interest in privacy, the legislature’s intent to maintain such a privilege, and public-policy
reasons for preserving confidential communications between victim and counselor are all
considerations when deciding whether a victim’s counseling records must be disclosed to
defense counsel assuming the privilege has been properly asserted and established. State
courts have reached different conclusions about a criminal defendant’s constitutional right
to pierce an absolute sexual-assault counselor privilege. Compare In re Crisis Connection, Inc.,
949 N.E.2d 789, 802 (Ind. 2011) with Mass. v. Dwyer, 859 N.E.2d 400, 419 (Mass. 2006).
3

9

In Johnson, our supreme court rejected the argument that a criminal defendant has
the right to see a victim’s privileged mental-health records during pretrial discovery—or
examine them during a pretrial witness-competency hearing. Johnson, 342 Ark. at 193, 27
S.W.3d at 410.

There is no holding, however, on whether a criminal defendant’s

constitutional rights at trial may outweigh the victim’s right to assert a privilege—especially
when the State has previously obtained the disputed records by subpoenas based on its own
initiative or at the court’s behest. In fact, the prosecuting attorney in Johnson did not access
or possess the victim’s mental-health records. Id. at 197, 27 S.W.3d at 412 (stating that the
appellant’s argument “presupposes that the State had access to or knowledge of the records
and their contents.”).4 Johnson therefore cannot control this case.
This case is different. Here the prosecutor had in hand K.H.’s records from two
separate private counseling centers. The printed date on court’s exhibit No. 1 from Provider
A is 15 May 2018. The facsimile transmittal date from Provider B is 11 May 2018. Provider
C’s records relate solely to B.W. and are relevant only because they contain a response from
Provider C, on 25 May 2018, to the White County prosecuting attorney’s subpoena. The
pretrial hearing on Vaughn’s discovery motion was held in August 2018.
It does not appear that Vaughn ever tried to compel the production of K.H.’s records
by way of a subpoena like the State did; nor did he seek to compel testimony from her
therapist at trial. But even if K.H.’s records could be kept completely confidential—

4

The dissenting justices would have held that Johnson “was hamstrung in his crossexamination of [the victim] and in his defense in general and, thus, was denied his right to
a fair trial.” Johnson, 342 Ark. at 207, 27 S.W.3d at 418 (Brown, J., dissenting).
10

meaning a defendant would not be entitled to the records under any circumstance—K.H.’s
records were not, in fact, kept confidential because they were disclosed to the prosecutor.
Having determined that the State possessed the disputed therapy records, for Brady
purposes, the next question is whether the evidence was “favorable to [the] accused.” Brady,
373 U.S. at 87.
B. Was the Withheld Evidence Favorable to Vaughn?
Vaughn made a plausible showing that some of K.H.’s counseling records were
procured and possessed by the prosecutor and that the records contained impeachment or
exculpatory evidence critical to his defense. In our view, the circuit court should have
conducted an in camera review of K.H.’s records for evidence favorable to his defense. We
disagree with the State’s assertion that K.H. asserted a privilege that shielded the records
from review.
The State correctly notes that “[t]he privilege under Ark. R. Evid. 503 does not
belong to the State. It belongs to the patients and their physicians who are presumed to
have the authority to claim the privilege.” Yet, the State does not identify any point in
time in this case when K.H., her parents or guardians, or her healthcare providers asserted
any privilege or otherwise resisted the State’s subpoenas. Of course, the subpoenas beg this
question: if the State recognizes that K.H. holds the privilege then why did it send the
subpoenas?

Where is an on-the-record discussion with the court, initiated by the

prosecutor, on why it should not be ordered to procure the records if that is, in fact, what
happened? As we have said a few times now, we cannot be certain what happened and
when because there is no record on this critical facet of the proceedings.

11

The State argues that Vaughn did not ask the court to make an in camera review.
But he did ask, and the circuit court did exactly that, although the depth to which it went
is murky. It is clear, however, that the court’s “no disclosure” decision was not based on a
Brady analysis. “I am going to stand by my ruling, that the patient/client/therapist privilege
is paramount and irrespective of exculpatory evidence.”
What to do? This court has in the past remanded a case to the circuit court and
directed it to conduct an in camera review of what an appellant claims to be Brady material.
But that has been done when it was known that the circuit court never looked at the
material. E.g., Harper v. State, 2019 Ark. App. 163, 573 S.W.3d 596. Our supreme court,
on the other hand, has held that a remand is unnecessary when the circuit court had already
reviewed the information. See, e.g., Holland, 2015 Ark. 341, at 18, 471 S.W.3d 179, 190.
This case falls into the latter category. Consequently, we will review the Brady issue rather
than remand the case to the circuit court.
So, is the disputed information favorable to Vaughn? Yes. K.H. was, without
question, a critical witness for the prosecution during the trial; and court’s exhibit No. 1
contains potentially exculpatory and impeachment evidence relevant to her testimony. The
second prong of Brady has therefore been met. See Strickler v. Greene, 527 U.S. 263, 282
n.21 (1999) (“Our cases make clear that Brady’s disclosure requirements extend to materials
that, whatever their other characteristics, may be used to impeach a witness.”); see also
Williams v. Taylor, 529 U.S. 420, 438 (2000) (main witness’s mental-health record was
potential Brady material when there were “repeated references to a ‘psychiatric’ or ‘mental
health’ report in a transcript”). We move to the third Brady element.

12

C. Was the Evidence in K.H.’s Records Material?
Vaughn argues that he was prejudiced by the nondisclosure because the records show
that K.H.’s version of events changed during counseling, that she asserted facts at trial that
she had previously denied, and that Provider A’s records generally cast doubt on her
testimony. Vaughn believes he could have effectively impeached K.H.’s testimony by
showing that the course of counseling or therapy caused her story to change, that the therapy
used “recover[ed] memories” and “dreams,” and that K.H. had expressly denied the sexual
abuse many times to her counselor. He also says that he could have retained an expert
witness to help him critique what happened during K.H.’s therapy if he had access to the
records sooner. Specifically, Vaughn contends that K.H.’s therapist helped coach the
“trauma narrative” that was ultimately reported to law enforcement, years after the alleged
events occurred.
To prevail under Brady’s “materiality” prong, Vaughn must show that the disputed
records create a “reasonable probability that, had the evidence been disclosed to the defense,
the result of the proceeding would have been different.” Isom v. State, 2018 Ark. 368, at 4,
563 S.W.3d 533, 538, cert. denied, 140 S. Ct. 342 (2019) (applying United States v. Bagley,
473 U.S. 667, 682 (1985)). And a “reasonable probability” is a probability sufficient to
undermine confidence in the outcome. Bagley, 473 U.S. at 682. But compare Jimenez v.
State, 918 P.2d 687 (Nev. 1996) (adopting a more protective “possibility” standard under
Nevada’s state constitution); N.Y. v. Fuentes, 907 N.E.2d 286, 289 (N.Y. 2009) (Under
New York law, if the defendant has “ma[de] a specific request for a document” that is
withheld, then the appropriate standard to measure materiality is whether there is “a

13

reasonable possibility” that the failure to disclose the exculpatory evidence contributed to
the verdict.).
We acknowledge the force of Vaughn’s argument and the surrounding
circumstances, but we nonetheless hold that there is no reasonable probability that the results
of the trial would have been different had the exculpatory/impeachment evidence contained
in K.H.’s disputed records been disclosed to Vaughn.
The jury convicted Vaughn of second-degree sexual assault. A person commits
sexual assault in the second degree under Ark. Code Ann. § 5-14-125(a)(3) (Repl. 2013) if
he is eighteen years of age or older and engages in sexual contact with another person who
is not his spouse and is less than fourteen years of age. “Sexual contact” means any act of
sexual gratification involving the touching, directly or through clothing, of the sex organs,
buttocks, or anus of a person or the breast of a female. Ark. Code Ann. § 5-14-101(11).
With these statutory elements in mind, we will explain why it was not reasonably probable
(as opposed to merely possible) for the undisclosed records to have changed the trial result.
The State’s brief catalogs some sexual instances that, when viewed in a light favorable
to the State, support the verdict. We need not get into those details here because a primary
problem for Vaughn, under our Brady analysis, is his interview by police detectives on 13
June 2016. We will concentrate on it for brevity’s sake. By doing so we do not minimize
K.H.’s testimony, which the jury was free to accept or reject. A focus on Vaughn’s
statement, however, amply supports our Brady decision.
As we have said, the full interview of Vaughn by the police was received as evidence
at trial, as State’s exhibit no. 15 by way of a video recording. During that four hours-plus

14

interview, which often meandered and was at times unclear, Vaughn admitted touching
K.H.’s vagina while she was in the bathtub. He admitted going into the bathroom, sitting
on the toilet, and using his phone while K.H. was bathing. Here is an excerpt of Vaughn’s
recorded police statement that was played to the jury during his trial:
DETECTIVE: Did you ever touch the bare—bare vagina?
VAUGHN:

Yes, I mean, I’ve said in the bath tub it was just a—kind of, like
I said, just washed, you know, because she’d want me to wash
her and I washed her. I, you know,

DETECTIVE: How many times have you touched her bare vagina?
VAUGHN:

Once.

DETECTIVE: Was that in the bedroom or the bathroom?
VAUGHN:

The bathroom.

DETECTIVE: How did you do that? How did you touch her?
VAUGHN:

She was—I had washed her back, washed her butt, and she was
kind of on her hands and knees in the bath tub and I washed.

DETECTIVE: And you accidentally touched her or did you—
VAUGHN:

No, I mean, I just kind of, just washed her. Not really, just—
it wasn’t like a –like—it wasn’t nothing like that.

DETECTIVE: Now, I’m not saying you put a finger in or anything like that.
Hand against skin—
VAUGHN:

Uh-huh.

DETECTIVE: —is it only one time in the bathroom?
VAUGHN:

Yes.

DETECTIVE: Okay. Did you just rub around and that feeling came back and
you’re like, oh shit, I got to quit and—

15

VAUGHN:

No. It wasn’t like rub around, it was just wash.

We acknowledge that during the police interview, Vaughn consistently denied being
aroused or gratified by touching K.H.’s vagina. And we note that he was not criminally
charged until more than two years after the police interview.
K.H. testified about the bathing incident at trial. She said that during the summer of
2016 she turned nine years old, and at that time she and her mother lived in Vaughn’s home.
K.H. testified that Vaughn would sit on the toilet “on his phone, drinking.” She told the
jury about a time that Vaughn entered the bathroom while she was taking a bath, put his
hands into the water, and touched her vagina:
And he leans over and since I was in the water in the bathtub, he swishes his
hand around the water and each time I move, he’d get closer to me and then
about four or five times, he would touch my vagina [with his hands].
On cross-examination, K.H. said that she told “Ms. Felicia” (at Child Safety Center)
twice that no one had touched her vagina. During the trial she said the opposite: Vaughn
had touched her. Defense counsel asked, “[B]ut all these times before you said no, didn’t
you?” K.H. replied, “Because I think I was just scared to admit that he did it.” So the jury
heard that K.H. had denied to investigators, at least twice, that Vaughn had touched her; in
fact, she had told them nothing happened. K.H. testified that she was “pretty sure [she] told
[the sexual abuse] to Ms. Sara [counselor at Provider A] after we stopped going to the Child
Safety Center.” The jury also heard that K.H. made the allegations against Vaughn
approximately two years after the touching had occurred and after she had been counseled.
There was no disagreement that Vaughn touched K.H.’s vagina; his version and her
version did not contradict one another on the essential point that there was a “touching,

16

directly or through clothing, of the sex organs” of K.H. Nor was there any dispute that
K.H. first denied the abuse multiple times only to disclose it two years later after she had
been in counseling. Vaughn may have been able to impeach K.H. in some manner with
the undisclosed records. That, of course, can be a critical moment during a trial. But he
was able to elicit testimony that K.H. had changed her story during the course of counseling
and cross-examined her at trial.
Cases interpreting the “sexual contact” definition focus on whether the act was done
for the purpose of sexual gratification. E.g., Chawangkul v. State, 2016 Ark. App. 599, 509
S.W.3d 10; see also Farmer v. State, 341 Ark. 220, 223, 15 S.W.3d 674, 676 (2000) (The
State must prove that the desire for sexual gratification is a “plausible reason for the act.”).
Granting the undeniable importance of impeachment evidence, the point remains that
Vaughn admitted touching K.H.’s vagina, and in the end, the jury was tasked with deciding
whether Vaughn’s touching K.H. in the bathtub—among other interactions the State
adduced at trial—was done for sexual gratification. He said it was not in the interview.
Only Vaughn will ever know whether he acted with the purpose of sexually gratifying
himself. Therefore, we cannot say that the undisclosed records would have made enough
of a difference on a key element of the sexual-assault charge: whether it was plausible that
the admitted vaginal touching occurred for sexual gratification. “[A] showing of materiality
does not require demonstration by a preponderance that disclosure of the suppressed
evidence would have resulted ultimately in the defendant’s acquittal[.]” Kyles v. Whitley,
514 U.S. 419, 434 (1995). But it must be shown that the favorable evidence, in the context

17

of the entire case, could “put the whole case in such a different light as to undermine
confidence in the verdict.” Id. at 435.
K.H.’s counseling records shed no light on Vaughn’s purpose when he touched her.
Whatever the content of K.H.’s records, the jury would still have had to determine, based
on all that it heard at trial, whether a forty-six-year-old man who touched a nine-year-old
girl’s vagina in the bathtub did so with the purpose of sexually gratifying himself. In our
view, the absence of the undisclosed records does not undermine our confidence in the
jury’s verdict; therefore, the records were not “material” under Brady. This means that
Vaughn suffered no prejudice under Brady’s standard.
II. Conclusion
Vaughn’s conviction for second-degree sexual assault is affirmed.
Affirmed.
SWITZER and VAUGHT, JJ., agree.

18

APPENDIX D

THE COURT: The legislature, again, recognizes the paramount status of the
confidentiality privilege between patient and a doctor or a therapist, and without
addressing whether any of these records reveal exculpatory statements or evidence,
the Court finds that the records in and of themselves are privileged and are not
subject to disclosure to the Defendant under any circumstances that are before the
Court. (R. 129)
__________________________
MR. ROSENZWEIG: If I heard you correctly, you held that this was -this -- your decision was made upon an application of law, but without regard to
whether anything in there was exculpatory. That -- am I stating that correctly?
THE COURT:

That is correct.

MR. ROSENZWEIG: Okay. Your Honor, our position is this, of course,
you referred to the fact that privilege is as called by the Constitution, Statute or by
the Rules of Evidence. The U.S. Supreme Court has dealt with this issue in
Pennsylvania vs. Ritchie, and in Ritchie, the U.S. Supreme Court, specifically
concealed that such otherwise privileged materials may, in fact, be exculpatory and
thus accessible to the Defendant. (R. 131)
______________________

THE COURT:
I'm finding that the privilege granted to a child in seeking
therapy with a licensed associate counselor or doctor -- I hate to use this word,
trumps the due process, confrontation and other Constitutional rights you claim. R
133)
_________________________

MR. ROSENZWEIG: Your Honor, I would also renew my objection to the
Court's refusal to provide us access to the counseling records of the accusers in this
case. I understand the Court has already ruled, and of course, made it's holding,
but note our objections and it is our position that it is particularly prejudicial since
it was the course of counseling that caused K.H. to develop, change, increase, etc.,
her statement and so, I'm going to, again, renew my objection. I assume the Court's
position will be the same.

THE COURT:
My ruling stands with respect to the exclusion of discussion
about counseling for either or both of the victims and I believe a clear record
earlier for my reasons and they remain the same.
MR. ROSENZWEIG: Your Honor, what is the -THE COURT:
Mr. Rosenzweig, let me try to -MR. ROSENZWEIG: Oh, I'm sorry, Your Honor.
THE COURT:
Try not to interrupt me, okay?
MR. ROSENZWEIG: I wasn't trying to interrupt. . I --just quick on the draw
here.
THE COURT:
Yes, sir. Go ahead.
MR. ROSENZWEIG: Thank-you. What is the Court's position if I make
reference in opening statement or in cross examination to the fact that either or
both went to counseling? I would like to develop that issue and if I can't do it on
cross examination, I would like to make a proffer outside the presence of the jury
with regard to them on that issue. So, what I don't want to do is get held in
contempt, among other things, and I just need to where the Court is on that so I can
make my record, but conform to your rulings.
THE COURT:
What is the State's position?
MS. MCCOY:
Judge, I -- and Norene, do you -MS. SMITH:
No, go ahead.
MS. MCCOY:
I'm just saying that if you've already ruled that topic
inadmissible, he can't talk about it in opening, because it's not going to be admitted
into evidence, just like anything else that he knows is not going to be admissible
into evidence, you can't reference it in opening. He can proffer it all day long, but
he can't reference it in opening.
THE COURT:
I'm going to rule in the Defendant's favor that he can and you
can put forth in proper form of a question to either or both of the victims, "Did you
have professional counseling with respect to the allegations in this case?" And they
can admit or deny it as they choose to do. He cannot or you cannot go into who the
counselor was, when it was, what or where it took place, any substance or
specificity with respect to the questions and answers, but the fact that a witness,
purported victim, was seeing professional counseling, I don't see that that's a
problem and I would allow that.
MR. ROSENZWEIG: Your Honor, let me ask you specifically this, can I enlist
or bring out on opening or in direct examination that, for instance, K.H., made one
set of statements and then after a year of counseling, then added to and made those
statements? In fact, it was the fact that she allegedly opened up in counseling after
a number of months that caused them to, essentially, reopen this investigation and -

THE COURT:
You're going into a prohibited area there, as I just – [emphasis
supplied]
MR. ROSENZWEIG: Okay. That's -- that's -THE COURT:
-- explained.
MR. ROSENZWEIG: -- that's what I needed to know and it's my position that I
should be allowed to get into that. I understand the Court's ruling and I will abide
by the Court's ruling. I just wanted to make sure I understood it and made the
appropriate objection.
THE COURT:
Okay.
(R 150-154)

__________________

MR. ROSENZWEIG: One, I just wanted to make sure my court record,
of course, we will comply with the Court's instruction on -- complying with the
Court's instructions concerning the counseling issue. I just wanted to make sure I
stated the basis for my objection is we believe that this was relevant under Rules
401 and 402, and furthermore, that the exclusion will adversely effect and violate
our Constitutional right to present a defense, specifically, under Federal and State
constitutional guarantees of due process, compulsory process and particularly, in
this case, confrontation. So, I wanted to state the basis for my objection and I
assume that hasn't changed your mind.
THE COURT:
I stand by my previous ruling that the testimony
concerning counseling concerning counseling is not admissible under the laws of
the State of Arkansas and I have noted your objections I think now probably at
least ten times and I'm sure you will make them again. (R 189-190)
_______________________________

MR. ROSENZWEIG: I would like to renew my motion for the counseling
records because I think they may be explicitly relevant by her saying that she first
said this to the counselor after she had denied twice at the Child Safety Center, so
I'll renew my motion for access to the counseling records.
THE COURT:
And I reaffirm my previous ruling. Those records are not
admissible. (R 515)

______________________________

MR. ROSENZWEIG: Yeah, yeah, I understand. Anyway, what I would like to
do, for the purpose of the appellate record, is to proffer by questioning her outside
the presence of the jury.
THE COURT:
It will be denied. I'm not going to allow proffered testimony
outside the presence of the jury of this little girl.
MR. ROSENZWEIG: Well, note my objections, Your Honor. May I make a
speaking proffer now?
THE COURT:
Go ahead.
MR. ROSENZWEIG: It is my belief that that proffer would show that the girl
has been coached and to make the allegation of touching by Mr. Vaughn, which
she said specifically said several times because her testimony is she made the claim
first only to the counselor after she's denied it the second time. Anyway, and then,
of course, I'm going to need the records for that, obviously, you're denying it, but I
-- anyway, that's what I wish to do. I thought you were going to allow me to make
a proffer.
THE COURT:
I have made my ruling a number of times that the counseling
records are not admissible and that the statements she made to the counselor were
not admissible. You have introduced today through her interview to what you
want to call prior inconsistent statements and that's fine, but I am not going to let
you do anything with the counseling records based on my prior ruling period.
(R 518-519)
__________________
THE COURT:
Court will come back to order in Case No. CR-18-151. I want
to clear up for the record, I checked during the noon hour with the court reporter
and the counseling records that continue to be a subject of some concern in this
case were admitted as an exhibit under seal on the August 28, 2018, pre-trial, and I
will, by incorporation, incorporate them as an exhibit into this record for purposes
of appellate review.
MR. ROSENZWEIG: Thank-you, Your Honor.
THE COURT:
And I want to clarify your request at the end of the morning
session to make a proffer of testimony from K.H. concerning the counseling
records. I denied that because the counseling records I had deemed to be
inadmissible for all purposes in this case. The records are there for the appellate
court to look at. If they determine that those records are admissible, whatever

proffer you can make, it's in that record and you can discuss it on appeal. The same
as to your second request to make a proffer concerning counseling records. Again,
the counseling records are available to the appellate court for review. I have
determined they are inadmissible for all purposes in this case. If the appellate court
determines that are admissible, they can review them and you can make whatever
argument you wish at that time.
MR. ROSENZWEIG: May I respond?
THE COURT:
Okay.
MR. ROSENZWEIG: Thank-you. . Your Honor, I wanted just the counseling,
but I wanted to further inquire of her, even if I didn't get the counseling records
about -- more about the course of counseling, because you have restricted in
chambers before trial -- restricted what I had asked about -THE COURT:
What I told you at the in chambers hearing was you could ask
her, which you did, if she went to counseling, and that's all you can do.
MR. ROSENZWEIG: And what I was seeking to do was make a proffer to
delve further into the course of her counseling.
THE COURT:
And that's not admissible -MR. ROSENZWEIG: And whether I have the records or not, that's what I
wanted to make a proffer and it is our position that they were made especially
relevant now even if you had been correct before now that your continue to
adherence to your ruling, we respectfully say it would be erroneous because it was
apparently as a result of the further counseling that she made claims that she had
never made before. Even though a year had lapsed, approximately, between the
first interview and the second interview, in which she was in counseling, and in
fact, it was the fact of the alleged disclosures of what was claimed in the Affidavit
to be the disclosures that caused the second interview. And the second interview
she still denied stuff which she -THE COURT:
I'm going to stop you at this point. You're making conclusions
that may or may not be correct that's not in the record. What I ruled was that you
were not allowed to ask her questions about her course of counseling because that,
in my opinion, was not admissible before and remains not admissible at the end of
her testimony and I am not going to accept any further argument. The matter is
over with. That's my ruling. I just want to clarify as to what my ruling was.
(R 518-525)

